NO.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

RODNEY RUSSELL
Petitioner
Vv.
UNITED STATES OF AMERICA

Respondent

On Petition for a Writ of Certiorari
to the Court of Appeals for the First Circuit

PROOF OF SERVICE

I, William S. Maddox, do swear or declare that on this date, April 2, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses if those served are as follows:

Elizabeth Prelogar, Esquire

Acting Solicitor General of the United States
Room 5614

Department of Justice

950 Pennsylvania Ave., N.W.

Washington, DC 20530-0001

(202) 514-2203

Rodney Russell

REG# 06854-036

FMC Devens

Federal Medical Center
P.O. Box 879

Ayer, Massachusetts 01432

WILLIAM S. MADDOX, Esquire
Attorney of record for petitioner
P.O. Box 1202

Rockland, Maine 04841

(207) 594-4020
